Semiannual Report to Congress
April 1, 2008 – September 30, 2008



                               November 2008




    Federal Election Commission - Office of Inspector General
           999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2008 - September 30, 2008




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463



            OFFICE OF THE CHAIRMAN



                                                                                        November 19, 2008


                The Honorable Nancy Pelosi
                Speaker of the House of Representatives
                Washington, D.C. 20515

                Dear Madam Speaker:

                        Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                Commission submits the Inspector General's Semiannual Report to Congress. The report
                summarizes the FEC’s Inspector General’s activity from April 1, 2008 through September 30,
                2008. During this reporting period the FEC’s Inspector General commenced an audit of the
                FEC’s fiscal year 2008 financial statements. The audit was completed on time and management
                issued the final Performance and Accountability Report on November 14, 2008. We are pleased
                to report that the Commission received an unqualified opinion from its outside auditors. We will
                provide additional comments on this audit in the next Semiannual Report to Congress.

                        During the semiannual period, the FEC’s Office of the Inspector General (“OIG”)
                continued follow-up verification activity for a previous audit of the FEC’s employee transit
                benefit program. This audit was released in February 2007 and resulted in 25 recommendations
                to improve management of this program. FEC management continues to review these
                recommendations to identify and implement measures that will improve the management of this
                program in a cost-effective manner.

                       The OIG also performed follow-up work on a 2007 audit of the FEC’s privacy and data
                protection practices, which had resulted in seven findings. In response to the audit and with input
                from the Inspector General, FEC management promptly developed a corrective action plan to
                implement the audit recommendations and continues to pursue the actions identified in that plan.

                       The Commission appreciates and shares the Inspector General’s commitment to
                sound financial and management practices, and we anticipate a continued cooperative
                working relationship as management takes appropriate measures to improve operations of the
                Commission. Copies of this semiannual report are being provided to the Chairman and Ranking
                Members of the FEC’s oversight committees.

                                                                      On behalf of the Commission,



                                                                       Donald F. McGahn II
                                                                       Chairman
                Enclosure




                                                                                                                      i
                                                             Office of Inspector General Semiannual Report to Congress




                          MANAGEMENT REPORT ON FINAL ACTION
                            ON AUDITS WITH QUESTIONED COSTS
                   FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2008

                                                     Number of         Questioned       Unsupported
                                                    Audit Reports        Costs             Costs

     A. Audit reports for which no management
        decision has been made by commencement           0                  0                 [0]
        of the reporting period


     B. Audit reports issued during the reporting
                                                         0                  0                 [0]
        period

        Subtotals (A + B)                                0                  0                 [0]
     C. Audit Reports for which a management
        decision was made during the reporting           0                  0                 [0]
        period

        (i) dollar value of disallowed costs             0                  0                 [0]

        (ii) dollar value of costs not disallowed        0                  0                 [0]


     D. Audit Reports for which no management
        decision has been made by the end of the         0                  0                 [0]
        reporting period


     E. Audit Reports for which no management
        decision was made within six months of           0                  0                 [0]
        issuance




ii
April 1, 2008 - September 30, 2008




                                     MANAGEMENT REPORT ON FINAL ACTION
                          ON AUDITS WITH RECOMMENDATION TO PUT FUNDS TO BETTER USE
                              FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2008


                                                                              Number of Audit   Funds to be Put to
                                                                                 Reports           Better Use
                A. Audit reports for which no management decision has
                   been made by the commencement of the reporting                   0                   0
                   period

                B. Audit reports issued during the reporting period                 0                   0


                C. Audit Reports for which a management decision was
                                                                                    0                   0
                   made during the reporting period

                    (i) dollar value of recommendations that were agreed to
                                                                                    0                   0
                        by management


                      - based on proposed management action                         0                   0


                      - based on proposed legislative action                        0                   0


                    (ii) dollar value of recommendations that were not
                                                                                    0                   0
                         agreed to by management

                D. Audit Reports for which no management decision has
                                                                                    0                   0
                   been made by the end of the reporting period

                E. Audit Reports for which no management decision was
                                                                                    0                   0
                   made within six months of issuance




                                                                                                                     iii
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
April 1, 2008 - September 30, 2008




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463
                                     OFFICE OF THE INSPECTOR GENERAL




                                                  A Message from the Inspector General

                       This has been a very dynamic time for the Federal Election Commission. During the
                       past six months, the FEC received five new Commissioners, ending a period where
                       the agency lacked a quorum and was unable to carry out parts of its mission. The
                       past three years has been a period of instability with respect to governance in the
                       FEC. Specifically, there has been a lack of continuity in several key senior leadership
                       positions of the agency. For example, there have been four different Staff Directors,
                       two of which have been “acting” rather than permanently assigned. In addition,
                       there have been four different Chief Financial Officers (CFOs), two of which were
                       also in “acting” positions. There has also been lack of continuity at other vital posi-
                       tions. For example, the head of the Administrative Division retired in 2007 and her
                       replacement was employed at the FEC for only ten months. The current Office of
                       Human Resources Director, in place only fifteen months, is currently detailed to the
                       Deputy Staff Director for Management and Administration position, and therefore
                       is currently serving in both positions. I feel that it is imperative that these senior
                       management positions are filled as soon as possible with well qualified individuals
                       who can assist the Commissioners in ensuring that the mission of the FEC is moved
                       forward.
                       The OIG has also had a very active six months. We filled our Counsel to the Inspec-
                       tor General/Chief Investigator vacancy, a new position within the office. A new au-
                       ditor position was also filled. These two new positions represent the first growth the
                       OIG has experienced in fourteen years and will provide the OIG with much needed
                       assistance.
                       We have continued to work with management on our previously conducted Section
                       522 Privacy Audit, discussing their Corrective Action Plan (CAP) and the audit
                       follow-up process. The FY 08 Financial Statement Audit is being conducted and we
                       have started an audit of the FEC’s procurement and contract management function.
                       We have also seen an increase in hotline complaints and our new counsel is actively
                       working on those issues.
                       I would like to again thank the staff of the Office of Inspector General for their
                       hard work and dedication. I am honored to work with this intelligent and motivated
                       group of people.




                       Lynne A. McFarland
                       Inspector General
                       Federal Election Commission

                       October 31, 2008




                                                                                                                 v
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
April 1, 2008 - September 30, 2008




                                                           Table of Contents



     Executive Summary	                                                                           1
     The Federal Election Commission 	                                                            3
     Office of Inspector General	                                                                 4
     OIG Audit Activity	
                        Audit of the Federal Election Commission’s Fiscal Year                    5
                        2008 Financial Statements	
                        Audit of the FEC’s Contract and Procurement
                        Management Process	                                                       6
     OIG Audit Follow-Up Activity	                                                                7
     OIG Hotline Information	                                                                     9
     OIG Investigations	                                                                         10
     Additional OIG Activity	                                                                    11
     ECIE and PCIE Activity	                                                                     13
     Reporting Requirements 	                                                                    14
     Table I – Inspector General Issued Reports With
                 Questioned Costs                                                               15

     Table II – Inspector General Issued Reports With Recommendations
                 That Funds Be Put To Better Use                                                16
     Table III – Summary Of Audit Reports With Corrective Actions
                 Outstanding For More Than Six Months	                                          17

     OIG Contacts	                                                                               18
     List of Training, Meetings and Conferences	                                                 19
     OIG Strategic Plan - Fiscal Years 2005 – 2010	                                             21
     Contacting the Office of Inspector General	                                 (inside back cover)


                                                                                                       vii
                             Office of Inspector General Semiannual Report to Congress




       This Page Intentionally Left Blank




viii
April 1, 2008 - September 30, 2008




                                                             Executive Summary



The Inspector General Act of 1978, as amended,           LLP, discussed the audit scope and ways to ensure
states that the Inspector General is responsible for     an efficient and effective audit process for fiscal year
conducting audits, inspections, investigations, and      2008. A timeline was established for the audit, along
recommending policies and procedures that pro-           with requests to management for necessary docu-
mote economic, efficient, and effective use of agency    mentation and information concerning the financial
resources and programs that prevent fraud, waste,        statements.
abuse and mismanagement. The IG act also requires
the Inspector General to keep the Commission and         Based on the discussions with management and
Congress fully and currently informed about prob-        the OIG’s efforts to validate deliverables provided by
lems and deficiencies in the Commission’s opera-         two former contractors, the OIG decided to conduct
tions and the need for corrective action.                an Audit of the FEC’s Contract and Procurement
                                                         Management Process – OIG-08-02. The OIG began
This semiannual report includes the major accom-         the process of hiring an auditing firm to conduct the
plishments of the Office of Inspector General, as well   audit. The Request for Proposal was submitted to
as relevant information regarding additional OIG ac-     prospective contractors. After completing the review-
tivities. The executive summary highlights the most      ing process, the OIG awarded the contract to Regis
significant activities of the OIG. Additional details    & Associates PC.
pertaining to each activity can be found in subse-
quent sections of this report.                           During a prior reporting period, the OIG attempt-
                                                         ed to conduct a follow-up of the Audit of the FEC’s
The Audit of the FEC’s Fiscal Year 2008 Financial        Employee Transit Benefit Program – OIG-06-01.
Statements – OIG-08-01 commenced during this             The audit was released February, 2007 and can be
reporting period. Under a contract monitored by the      found on the OIG’s Website at http://www.fec.gov/
OIG, Clifton Gunderson LLP (CG-LLP), an inde-            fecig/transit07.pdf. The OIG made 23 recommenda-
pendent certified public accounting firm, is perform-    tions to aid in improving management of the transit
ing the audit of the FEC’s FY 2008 financial state-      benefit program. The OIG met with management to
ments. The OIG is responsible for oversight of the       discuss the status of the open recommendations, the
financial statement audit. This includes: 1) reviewing   OIG concluded that no recommendations had been
the auditors’ approach and planning of the audit; 2)     closed during this reporting period.
evaluating the qualifications and independence of
the auditors; 3) monitoring the work of the auditors;    The OIG conducted audit follow-up work on the 2007
4) examining audit documents and reports to ensure       Performance Audit of Privacy and Data Protection
compliance with Government Auditing Standards,           – OIG – 07-02. On December 8, 2005, the President
and OMB Bulletin No. 08-24 Audit requirements for        signed the Transportation, Treasury, Independent
Federal Financial Statements; and 5) other proce-        Agencies and General Government Appropriations
dures the OIG deems necessary to oversee the con-        Act 2005. This annual appropriations bill contained
tract and audit.                                         a new section, Division H, Title V, § 522 relat-
                                                         ing to privacy controls of certain Federal agencies.
The entrance conference was conducted, at which          Section 522 requires certain agencies to assign a
time management, the OIG, and Clifton Gunderson,         Chief Privacy Officer (CPO) who is responsible for
                                                         identifying and safeguarding personally identifiable


                                                                                                                1
                                                         Office of Inspector General Semiannual Report to Congress




information (PII). Section 522 also required an inde-
pendent third-party review, contracted by the OIG,
of agency use of PII and of its privacy and data pro-
tection policies and procedures at least every two
years.

The OIG selected Cotton & Company as the in-
dependent contractor to conduct the performance
audit of privacy and data protection policies and pro-
cedures. The audit resulted in seven findings. The
OIG conducted the follow-up and concluded that the
outstanding recommendations will remain open.

For detailed information regarding the above audits
and audit follow-up activity, see the section entitled
OIG Audit Activity (starting on page 5), and OIG
Audit Follow-up Activity (starting on page 8).

As this reporting period comes to a close, there are
sixteen open hotline complaints in various stages
(pending, in progress); and there are three open in-
vestigations. For more information pertaining to the
hotline issues, see the section entitled OIG Hotline
Information (located on page 12); for more informa-
tion on investigations, see the section entitled OIG
Investigations (located on page 13).




2
April 1, 2008 - September 30, 2008




                             the federal election commission



                                        In 1975, Congress created the Federal Election
                                        Commission (FEC) to administer and enforce the
                                        Federal Election Campaign Act (FECA). The duties
                                        of the FEC, an independent regulatory agency, are to
                                        disclose campaign finance information; enforce the
                                        provisions of the law; and oversee the public funding
                                        of Presidential elections.

                                        The Commission is made up of six members,
                                        who are appointed by the President and con-
                                        firmed by the Senate. Each member serves a six-
                                        year term, and two seats are subject to appoint-
                                        ment every two years. By law, no more than three
                                        Commissioners can be members of the same po-
                                        litical party, and at least four votes are required for
                                        any official Commission action. The Chairmanship
                                        of the Commission rotates among the members
                                        each year, with no member serving as Chairman
                                        more than once during his or her term. Currently
                                        the FEC has a full compliment of Commissioners –
                                        Donald F. McGahn, II, Chairman; Steven T. Walther,
                                        Vice Chairman; Cynthia L. Bauerly, Commissioner;
                                        Caroline C. Hunter, Commissioner; Matthew S.
                                        Petersen, Commissioner; and Ellen L. Weintraub,
                                        Commissioner.




                                                                                                  3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General



           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General is re-
           sponsible for: 1) conducting and supervising audits
           and investigations relating to the Federal Election
           Commission’s programs and operations; 2) de-
           tecting and preventing fraud, waste, and abuse of
           agency programs and operations while providing
           leadership and coordination; 3) recommending poli-
           cies designed to promote economy, efficiency, and
           effectiveness of the establishment; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
April 1, 2008 - September 30, 2008




                                                              OIG Audit Activity



Audit of the Federal Election Commission’s                 the progress of the audit and areas of concern. CG-
Fiscal Year 2008 Financial Statements                      LLP has started providing management with notice
                                                           of findings and recommendations (NFR). The NFRs
Assignment Number: OIG – 08-01                             inform management of potential audit findings and
                                                           allow management the opportunity to respond to the
Status:	 In Progress                                       issues before the final audit report is issued.

The Chief Financial Officers Act of 1990 (Public Law       The OIG participated with the Clifton Gunderson au-
101-576, commonly referred to as the “CFO Act”),           ditors in their fraud brainstorming session for the au-
as amended requires the FEC Office of Inspector            dit. SAS 109 and SAS 99 were used as the basis for
General, or an independent external auditor as             the session. The purpose of this session was to as-
determined by the Inspector General, to audit the          sess how fraud could be committed and concealed
agency financial statements. Under a contract moni-        within the FEC’s environment, specifically focusing
tored by the OIG, Clifton Gunderson LLP (CG-LLP),          on the risk of material misstatement. We assessed
an independent certified public accounting firm is         prior years’ risk and analyzed their potential of being
performing the audit of the FEC’s FY 2008 financial        a risk of material misstatement to the current year
statements.                                                audit and considered any new potential risk that
                                                           could possibly occur in this year’s audit.
The OIG is responsible for oversight of the financial
statement audit. This includes: 1) reviewing the audi-     The Inspector General, at the request of the audi-
tors’ approach and planning of the audit; 2) evalu-        tors, reviewed all agendas and minutes from the
ating the qualifications and independence of the           FEC Executive Meetings from October to June to
auditors; 3) monitoring the work of the auditors; 4)       ensure that they did not contain any information that
examining audit documents and reports to ensure            may have an impact in relation to the financial state-
compliance with Government Auditing Standards,             ments. The Inspector General has also met with the
and OMB Bulletin No. 08-24 Audit requirements for          auditors to discuss what recommendations con-
Federal Financial Statements; and 5) other proce-          tained in last year’s Financial Statement Audit report
dures the OIG deems necessary to oversee the con-          can be considered closed and which ones still need
tract and audit.                                           to be addressed by management.

The entrance conference was conducted, at which            The IG attended the SAS 99 meeting with the outgo-
time management, the OIG, and Clifton Gunderson,           ing Staff Director and the Clifton Gunderson auditors
LLP, discussed the audit scope and ways to ensure          to assess the Staff Director’s opinion on possible
an efficient and effective audit process for fiscal year   fraud issues at the FEC.
2008. A timeline was established for the audit, along
with requests to management for necessary docu-            The Inspector General and CG-LLP have met with
mentation and information concerning the financial         the FEC’s Finance Committee, composed of three
statements.                                                Commissioners, to discuss the progress of the audit
                                                           and the steps required to ensure that all of the au-
The OIG coordinated and participated in audit status       ditors’ and management’s needs are met. We have
meeting, with CG-LLP and management to discuss             found these meetings to be very productive and


                                                                                                                5
                                                          Office of Inspector General Semiannual Report to Congress




are encouraged with the level of interest from the   Audit of the FEC’s Contract and Procurement
Committee.                                           Management Process
                                                     Assignment Number: OIG – 08-02
                                                     Status: 	In Progress

                                                     Based on discussions with management and efforts
                                                     by the OIG to validate the deliverables of two former
                                                     contractors; the OIG decided to conduct an audit of
                                                     the procurement and contract management func-
                                                     tions of the agency.

                                                     The OIG began the process of hiring an auditing
                                                     firm to conduct the audit. The Request for Proposal
                                                     was submitted to prospective contractors; the OIG
                                                     received and reviewed the proposals, and follow-
                                                     ing the completion of the reviewing process, the
                                                     contract was awarded to Regis & Associates PC to
                                                     conduct the FEC’s procurement and contract man-
                                                     agement audit. A kick-off meeting was held with the
                                                     contractor at the end of the reporting period. We
                                                     anticipate the audit to commence shortly and expect
                                                     the final report to be delivered at the beginning of
                                                     the new calendar year.




6
April 1, 2008 - September 30, 2008




                                     OIG Audit Follow-up Activity



Audit Follow-up of the FEC’s Transit Benefit               FEC staff and the revised forms have not yet been
Program                                                    placed in use.

Assignment Number: OIG – 08-03                             The OIG interviewed the Human Resource staff to
                                                           gain an understanding of former and current operat-
Status: 	In Progress                                       ing practices used to manage the program. Records
                                                           were reviewed of staff who resigned or were placed
During a prior reporting period, the OIG conduct-          on administrative leave during the 2007 calendar
ed the Audit of the FEC’s Employee Transit Benefit         and fiscal year since the Transit audit report was
Program – OIG-06-01. The audit was released                issued. The OIG obtained copies of transit applica-
February, 2007 and can be found on the OIG’s               tions and annual recertification forms submitted by
Website at http://www.fec.gov/fecig/transit07.pdf.         FEC staff. The FEC’s Washington Metropolitan Area
The audit was conducted in response to a 2005 OIG          Transit Authority (WMATA) account representative
hotline complaint alleging that some participants re-      was contacted to gain an understanding of the sys-
ceived transit benefits while on extended business         tem controls and downloadable data available for
travel, which is a violation of FEC policy. The OIG        use in verifying FEC staff compliance with Transit
made 25 recommendations to aid in improving man-           Benefit Program policies.
agement of the transit benefit program.
                                                           Detailed testing of the transit benefit program was
In December 2007, the OIG initiated audit follow-up        performed to determine whether the program weak-
verification activity for the Transit Benefit Audit. The   nesses, as a whole, had been addressed and
OIG met again with management on February 20,              whether the prior OIG recommendations had been
2008 to determine status of the open recommenda-           implemented and achieved the desired result. This
tions. We were unable to get an updated status at          involved reviewing internal documentation from
that time but eventually received an updated correc-       various offices, compiling and analyzing electronic
tive action plan (CAP) from management on March            transit information, conducting interviews with staff
14, 2008. The OIG attempted to verify whether the          of HR, Administration and Finance, as well as with
actions had been fully implemented and therefore           external stakeholders such as WMATA customer
corrected the deficiencies described in the findings.      service representative, and LAZ and MetroPark
Because management did not provide the CAP by              parking managers. As a result of speaking to the
the requested date, the OIG was unable to complete         business responsible for managing FEC parking,
verification activities, prior to cut-off for semiannual   information on employees who pay for parking has
reporting, for the three recommendations manage-           been provided to the FEC Administrative Division
ment put forth as fully implemented.                       and disseminated to Human Resources. This will
                                                           help ensure that staff who pay to park in the parking
The FEC OIG reviewed and provided comment on               garage are not allowed to participate in the transit
draft policies and procedures as well as clearance         benefit program.
forms used to document whether staff claimed ex-
cessive transit benefits which require repayment.          The results of testing are being compiled and the
Based on discussion with the Human Resource                draft report is in progress and should be completed
staff, the policies have not been communicated to          soon.


                                                                                                                 7
                                                              Office of Inspector General Semiannual Report to Congress




2007 Performance Audit of Privacy and Data               with a revised CAP, the OIG met with the Co–Chief
Protection                                               Privacy Officer and team to discuss the revised plan
                                                         and resolution process.
Assignment Number: OIG – 07-02
                                                         It is important to note that management continues
Release Date: December, 2007                             to disagree with two of the seven audit findings. As
                                                         part of the OIG’s audit follow-up process, the OIG
Website Address: http://www.fec.gov/                     assess whether actual corrective action taken by
fecig/2007Privacy.pdf                                    management has mitigated or eliminated the two
                                                         audit findings with non-concurrence. The OIG con-
Audit follow-up work was performed on the 2007           siders findings “closed” based on the audit follow-up
Performance Audit of Privacy and Data Protection         work that involves verification that management’s
– OIG – 07-02. On December 8, 2005, the President        corrective actions have addressed the weaknesses
signed the Transportation, Treasury, Independent         identified during the audit.
Agencies and General Government Appropriations
Act 2005. This annual appropriations bill contained      The OIG concluded that the seven outstanding rec-
a new section, Division H, Title V, § 522 relating to    ommendations will remain open. The OIG believes
privacy controls of certain Federal agencies. Section    that management’s implementation of the recom-
522 requires certain agencies to assign a Chief          mendations will enable the FEC to reach an appro-
Privacy Officer (CPO) who is responsible for identify-   priate level of compliance with respect to privacy
ing and safeguarding personally identifiable informa-    practices.
tion (PII). Section 522 also required an independent
third-party review, contracted by the OIG, of agen-
cy use of PII and of its privacy and data protection
policies and procedures at least every two years.
The OIG contracted Cotton & Company to con-
duct the required audit. The audit resulted in seven
findings, two of which did not have management
concurrence.

During the previous reporting period, the OIG coor-
dinated a management briefing about the audit and
the importance of effective internal controls. The
briefing included the two Commissioners serving at
that time, the Staff Director, General Counsel and
Chief Financial Officer. This reporting period the OIG
briefed the Co-Chief Privacy Officers, shared the
Cotton & Company presentation, and discussed the
context of the slide presentation.

In accordance with Office of Management and
Budget (OMB) Circular No. A-50, Audit Follow-up,
revised, the FEC developed a corrective action plan
(CAP) to set forth the specific action planned to
implement the recommendations and the schedule
for implementation. The OIG met with management
to discuss the CAP provided. The OIG provided de-
tailed written comments to management regarding
required and suggested elements to reach resolu-
tion on the CAP. Management provided the OIG


8
April 1, 2008 - September 30, 2008




                                     OIG hotline Information



                                         The Office of Inspector General established a hotline
                                         to enable employees and others to have direct and
                                         confidential contact with the OIG. The OIG receives
                                         complaints through various means such as U.S.
                                         mail, telephone, e-mail, and personal visits to the
                                         OIG. Once a hotline (HL) complaint has been re-
                                         ceived, a preliminary inquiry is conducted. When the
                                         inquiry has been completed, the hotline complaint
                                         can be closed with no further action taken, referred
                                         to management for action, or closed and an investi-
                                         gation opened on the issue.

                                         Seven (7) new HL complaints were opened during
                                         the fourth quarter. Two (2) of the seven (7) new HL
                                         complaints were also closed during the fourth quar-
                                         ter and converted into investigations. There are now
                                         sixteen (16) open hotline complaints at the end of
                                         the reporting period in various stages (pending, in
                                         progress). Eleven (11) of the sixteen (16) open HL
                                         complaints have been reviewed during this quarter
                                         and discussions have been held to determine what
                                         further action, if any, will be taken. The OIG also
                                         drafted new hotline complaint procedures and a new
                                         hotline complaint form.




                                                                                            9
          Office of Inspector General Semiannual Report to Congress




        OIG investigations



     At the end of the reporting period there were three
     (3) open investigations. Two (2) new administra-
     tive investigations were opened during this quar-
     ter. One (1) criminal investigation (OIG-06-03)
     remained open from previous reporting periods.
     Approximately nine (9) investigative interviews
     were conducted in connection with these investi-
     gations. Agency records were requested and ob-
     tained from the Office of Human Resources and the
     Office of Administration. Investigative records were
     also requested and obtained from the Washington
     Metropolitan Area Transit Authority.

     The OIG Investigation Manual was revised and new
     language was added. In addition, new investiga-
     tion forms including case initiation; memorandum
     of interview; memorandum of activity; investigative
     plan and worksheet; an employee Kalkine advisory
     form; and an employee Garrity advisory form were
     created.




10
April 1, 2008 - September 30, 2008




                                                  Additional OIG Activity



Besides conducting audits, inspections, and investi-         The OIG also conducted an informal debrief
gations, the OIG performs, and is involved in an ar-         session with the FEC’s records clerk prior to
ray of additional projects and activities. As required       his departure from the agency. The purpose of
by the Inspector General Act of 1978, as amend-              the meeting was to identify the various forms
ed, all legislation compiled by the Commission’s             required and the boxing method used to trans-
Congressional Affairs office is reviewed by the              fer records to the Washington Records Center
Inspector General. The Inspector General also re-            in Suitland. The OIG anticipates composing
views and provides comments, when appropriate,               a procedures guide for the office to ensure a
on legislation provided by the PCIE/ECIE Legislative         clear and consistent approach to managing
Committee. In addition, the Inspector General rou-           OIG records.
tinely reads all Commission agenda items. The fol-
lowing are examples of those additional activities:       ●● The OIG provided the FEC’s Information
                                                             Systems Security Officer (ISSO) with informa-
  ●● During the previous reporting period the OIG            tion pertaining to the FEC’s Social Security
     worked on finalizing its record retention and           Number Reduction Program. As part of an
     disposition schedule to be submitted to the             agency wide request, the ISSO requested the
     National Archives and Records Administration            OIG identify documents containing social secu-
     (NARA) for approval. The purpose of the re-             rity numbers, and any alternative identifiers to
     cord retention and disposition schedule is to           using the social security number. The OIG sub-
     list the types of records maintained by the OIG         mitted the name and type of every document
     and the time period after which destruction or          retained in our office that contained a SSN.
     permanent retention is authorized. The record           This included documents which may not have
     retention schedule will also provide for the            originated from the OIG but the OIG uses on
     transfer of inactive records from the OIG to an         a regular basis. The OIG determined that we
     off-site records center.                                do not collect SSN’s directly from employees.
                                                             However, the Time and Attendance Reports
      During this reporting period the OIG re-               and the leave balance reports come with the
      searched the NARA record retention schedule            SSN’s pre printed on the form. The OIG en-
      for OIG law enforcement agencies to deter-             sures that they are stored under lock and key.
      mine how grand jury records are retained. In           The SF-182 training forms only contain the last
      addition, the OIG attended a meeting with the          4 digits of the employee’s SSN, and they are
      FEC’s Records Analyst and the NARA repre-              stored under lock and key as well.
      sentative to gain an understanding of the OIG’s
      ability to classify and process records in an ef-   ●● The OIG worked with the FEC’s IT division to
      ficient manner. Following the meeting the OIG          create an electronic audit follow-up tool that
      received a draft records schedule which was            can be used by both the OIG and agency man-
      reviewed, modified, and forwarded to the FEC           agement to record recommendation imple-
      Records Officer for formal submission to NARA          mentation and verification activities. The tool is
      for consideration and approval by the NARA             designed to provide regular and ad hoc audit
      archivist.                                             recommendation status reporting for the OIG.
                                                             While the concept is sound and the application


                                                                                                            11
                                                           Office of Inspector General Semiannual Report to Congress




     shows promise, there appears to be a compat-
     ibility issue between the software version the
     tool was developed in, and the version running
     on OIG computers. The OIG plans to revisit the
     compatibility issue with the IT division and final-
     ize plans to develop and utilize the electronic
     audit follow-up tool.

 ●● The OIG prepared comments regarding pend-
    ing legislation – the Federal Information
    Infrastructure Response Act of 2008 (FIIRE
    Act); and the Government Credit Card Abuse
    Prevention Act of 2008. Comments pertaining to
    Credit Card Abuse prevention were provided to
    the USDA Counsel to the IG.
 ●● The OIG provided comments to FEC manage-
    ment on the following topics: FEC draft Travel
    Policy; the FEC Employee Recognition Awards
    Program; Performance Awards; and the Transit
    Benefit Subsidy Procedures.
 ●● The OIG completed a Government
    Accountability Office questionnaire; the purpose
    of the questionnaire was to evaluate agen-
    cy governance and the relationship with the
    Inspector General.
 ●● The OIG acted as an independent asses-
    sor and assisted the Federal Housing Finance
    Board (FHFB) OIG with evaluating proposals
    for their annual FISMA review. The intent was
    to provide independent assessment on propos-
    als submitted, reach consensus as a group, and
    award a contract to the organization that repre-
    sented the best value for money.

 ●● The OIG met with an audit representative from
    another OIG to respond to questions about the
    OIG’s responsibility for overseeing the annual
    financial statement audit of a federal agency.
    The OIG provided specific examples, forms,
    and other guidance to educate the OIG repre-
    sentative on the responsibilities for monitoring a
    financial statement audit.




12
April 1, 2008 - September 30, 2008




                                                          ECIE and PCIE Activity



The President’s Council on Integrity and Efficiency        General, four from the President’s Council on
(PCIE) and the Executive Council on Integrity and          Integrity and Efficiency and four from the Executive
Efficiency (ECIE) were established May 11, 1992            Council on Integrity and Efficiency. The Committee
by Executive Order 12805, and are chaired by the           devised an implementation plan for the Inspectors
Office of Management and Budget, Deputy Director           General to follow to ensure that the requirements
for Management. In addition to the Inspectors              under the new IG act are met. One of the biggest is-
General, the councils include representatives from         sues was the combining of the two existing Councils
the Office of Personnel and Management, the Office         into one and electing a Chairman from the member-
of Government Ethics, the Office of Special Counsel,       ship. The Committee drafted a plan for this transi-
and the Federal Bureau of Investigations.                  tion for consideration by the Councils and a charter
                                                           under which the new Council would operate. The
The PCIE/ECIE have identical functions and respon-         Committee also devised a nominating and election
sibilities to coordinate and enhance governmental          process to fill the position of Chairman.
efforts to promote integrity and efficiency, and to de-
tect and prevent fraud, waste and abuse in Federal
programs. The PCIE is comprised of IGs appointed
by the President of the United States and confirmed
by the Senate. The ECIE consists of IGs appointed
by the heads of their respective agencies.

The Inspector General is an active member of the
Executive Council on Integrity and Efficiency and has
provided input on a number of initiatives proposed by
the Council. The IG participates in joint meetings and
activities with the President’s Council on Integrity
and Efficiency.

As a member of the Executive Council of the PCIE/
ECIE, the IG reviewed and scored 18 separate nomi-
nations for seven awards that are to be presented
at the annual PCIE/ECIE awards ceremony. These
awards include the Alexander Hamilton Award, the
Glenn/Roth Award for Exemplary Service and the
Award for Individual Accomplishment. The IG also
represented the ECIE Chair at two PCIE meetings.

In anticipation of pending legislation, the IG commu-
nity formed the IG Act Implementation Committee.
The Inspector General is a member of this commit-
tee. The committee is composed of eight Inspectors



                                                                                                             13
                                                                Office of Inspector General Semiannual Report to Congress




                                               Reporting Requirements

       Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
       General Act Amendments of 1988 are listed below:


     	 IG Act	              Description	                                                                      Page


      Section 4(a)(2)       Review of Legislation                                                                  11

      Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                      None

      Section 5(a)(2)       Recommendations with Respect to Significant Problems, Abuses,                       None
                            and Deficiencies

      Section 5(a)(3)       Recommendations Included in Previous Reports on Which Corrective                       17
                            Action Has Not Been Completed (Table III)

      Section 5(a)(4)       Matters Referred to Prosecuting Authorities                                         None

      Section 5(a)(5)       Summary of Instances Where Information was Refused                                  None

      Section 5(a)(7)       Summary of Significant Reports                                                           5

      Section 5(a)(8)       Questioned and Unsupported Costs (Table I)                                             15

      Section 5(a)(9)       Recommendations that Funds be put to Better Use (Table II)                             16

     Section 5(a)(10)       Summary of Audit Reports issued before the start of the Reporting Period             N/A
                            for which no Management Decision has been made

     Section 5(a)(11)       Significant revised Management Decisions                                             N/A

     Section 5(a)(12)       Management Decisions with which the Inspector General is                            None
                            in Disagreement




14
April 1, 2008 - September 30, 2008




                                                                               TABLE I

INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)




                                                        Number   Questioned   Unsupported
                                                                   Costs         Costs

 A. For which no management decision has been made by     0          0             0
    commencement of the reporting period


 B. Which were issued during the reporting period         0          0             0


      Sub-Totals (A&B)                                    0          0             0


 C. For which a management decision was made during       0          0             0
    the reporting period


      (i) Dollar value of disallowed costs                0          0             0


      (ii) Dollar value of costs not disallowed           0          0             0


 D. For which no management decision has been made by     0          0             0
    the end of the reporting period

 E. Reports for which no management decision was made     0          0             0
    within six months of issuance




                                                                                            15
                                                                   Office of Inspector General Semiannual Report to Congress




                                                                                                     TABLE II

INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE



                                                                             Number                 Dollar Value
                                                                                                  (In Thousands)
 A. For which no management decision has been made by the                         0                          0
    commencement of the reporting period

 B. Which were issued during the reporting period                                 0                          0

 C. For which a management decision was made during the report-                   0                          0
    ing period
     (i) dollar value of recommendations were agreed to by                        0                          0
         management

        based on proposed management action                                       0                          0

        based on proposed legislative action                                      0                          0

     (ii) dollar value of recommendations that were not agreed to by              0                          0
          management
 D. For which no management decision has been made by the end                     0                          0
    of the reporting period
 E. Reports for which no management decision was made within                      0                          0
    six months of issuance




16
April 1, 2008 - September 30, 2008




                                                                                      TABLE III



SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS
                                     Financial Statement Audits

                                                                     Recommendations
        Fiscal Year                     Report             Repeat*       New        Closed       Total
                                        Number

       Fiscal Year 2004                 OIG-04-01              0          42           12          30

       Fiscal Year 2005                 OIG-05-01             30          11           15          26

       Fiscal Year 2006                 OIG-06-02             26          13           10          29

       Fiscal Year 2007                 OIG-07-01             14           7           11          10

*Repeat column represents recommendations from the prior fiscal year report that are still applicable to
the current fiscal year report.



                                                                     Recommendations
           Report Title                    Report            Issue     Number       Closed        Open
                                           Number            Date
    Audit of the FEC’s Employee            OIG-06-01        02/07          22           0          22
    Transit Program
    2007 Performance Audit of              OIG-07-02        12/07          7            0           7
    Privacy and Data Protection




                                                                                                        17
                                                                Office of Inspector General Semiannual Report to Congress




                                                                             OIG Contacts


The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – April 1, 2008 through September 30, 2008.

These contacts were made through various sources such as telephone calls, personal visits to the OIG, e-
mails, faxes, and U.S. mail – the OIG received a total of 533 contacts, 501 of those contacts were retrieved
from the OIG SPAM account and required no additional action; 25 contacts required OIG action; and 7 contacts
were forwarded to other agencies or another division within the Federal Election Commission.




                   Total            OIG         No Action       Forwarded
                  Contacts         Action       Necessary       for Action

                     533              25           501                7




18
April 1, 2008 - September 30, 2008




                                               List of Training, Meetings
                                                         and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period April 1, 2008 – March 31, 2008.

                      Host/Sponsor                                              Topic/Subject

                                                      ECIE Monthly Meetings

                                                      PCIE Financial Statement Audit Network (FSAN) Meetings

                                                PCIE/ECIE Committee Meetings
                                                          2008 PCIE/ECIE Annual Training Conference:
                                                PCIE/ECIE Transitioning to a New Administration – Role of
                                                          Inspectors General
           Council of Counsels to the Inspectors General CCIG Meeting

           Assistant Inspector General for Investigations AIGI Quarterly Meetings

                 Association of Government Accountants AGA’s Third National Internal Control and Fraud
                                                       Conference
                                                       AGA’s 57th Annual Professional Development
                                                       Conference
            Federal Dispute Resolution Conferences, Inc. 23rd Annual FDR Conference

                              General Accountability Office Principles of Appropriations Law Training

                                       American University Key Executive Leadership – Session Two

                                     USDA Graduate School Basic Governmental Auditing

                                                             Fundamentals of Writing

                                     U.S. Postal Service/OIG Introductory TeamMate Electronic Workpapers

                                                             National Procurement Fraud Task Force Conference

                 Association of Certified Fraud Examiners Certified Fraud Examiners Preparation Training

                                                             Certified Fraud Examiners Conference

                           Federal Audit Executive Council 2008 FAEC Conference

                                Office of Government Ethics National Government Ethics Conference

Office of Thrift Supervision/Internal Coaching Alliance Reach Your Full Potential Through Coaching

                                                                                                            (Cont.)

                                                                                                                19
                                          Office of Inspector General Semiannual Report to Congress




     Host/Sponsor                                       Topic/Subject

                    Potomac Forum     E-Records in Government

                                      Weekly Senior Level Meetings

                                      Annual Ethics Training

                                      Annual IT Security Awareness Training

                                      Annual Privacy Awareness Training

                                      Hatch Act Training

                                      ComprizonSuite Training – Submitting Electronic
                                      Procurement Requests
        Federal Election Commission   Project Management Fundamentals (SkillPort)

                                      Introduction to Program Management (SkillPort)

                                      Government Purchase Card Fraud, Waste, and Abuse
                                      Webcast Seminar

                                      Accession (Records Management) Training

                                      Kronos Automated Time and Attendance Tutorial

                                      Presented OIG information in New Employee
                                      Orientations




20
April 1, 2008 - September 30, 2008




      FEC/OIG Strategic Plan - Fiscal Years 2005 – 2010
                                                                   FEC / OIG Strategic Plan - Fiscal Years 2005 - 2010
         OIG Products: To provide products                             OIG Process: To develop and implement
                                                                                                                                        OIG Staff: To maintain a skilled and motivated
         and services that promote positive                            processes, policies, and procedures to ensure
                                                                                                                                        work force in an environment that fosters
         change in FEC policies, programs, and                         the most effective and appropriate use of OIG
                                                                                                                                        accountability, communications, teamwork, and
         operations.                                                   resources in support of our people and
                                                                                                                                        personal and professional growth.
                                                                       products.

         Objective A: Deliver timely, high-quality                                                                                      Objective A: Attract and retain well-qualified,
         products and services that promote                                                                                             diverse and motivated employees.
         positive change.                                                Objective A: Maintain a dynamic strategic
                                                                         planning process.                                              Strategy:
                                                                                                                                        - develop and implement a comprehensive recruiting program
         Strategy:
         - establish common OIG standards for communicating              Strategy:                                                      that attracts a broad population with the knowledge, skills,
                                                                                                                                        abilities, and expertise necessary to make meaningful
         results;                                                        - periodically review and update the strategic plan to
                                                                                                                                        contributions to the OIG;
         - conduct quality assurance programs;                           address changing OIG and FEC priorities; and,
                                                                                                                                        - assess employee satisfaction and develop strategies to
         - solicit appropriate internal and external review and          - identify factors that influence organizational change
                                                                                                                                        address employee concerns;
         comment;                                                        and develop short and long term plans to address them.
                                                                                                                                        - identify reasons for staff departures and develop plans to
         - comply with applicable statutory guidelines and                                                                              foster greater staff retention; and,
         standards;                                                                                                                     - adhere to EEO principles and strive to maintain a diverse work
         - set realistic and appropriate milestones.                                                                                    force.

         Objective B: Address priority issues
         and concerns of the Commission,
                                                                         Objective B: Plan and conduct cost-
         Management, and Congress.
                                                                         effective work that address critical issues                    Objective B: Provide training and
         Strategy:     Perform work that supports;                       and results in positive change.                                developmental opportunities to employees.
         - Federal Election Commission and Congressional
         priorities;                                                     Strategy:                                                      Strategy:
         - Strategic Management Initiative efforts;                      - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                         activities;                                                    office needs as well;
         Focus OIG attention in the following areas of                   - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
         emphasis:                                                       goals and priorities;                                          training are adhered to; and,
         - managing change;                                              - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
         - resource allocation in relation to policy objectives;         communicated; and,                                             requirements are met.
         - delivery of client service;                                   - identify specific targets for OIG review that are the most
         - causes of fraud and inefficiency; and,                        cost-effective
         - automation and communication.



                                                                         Objective C: Identify customer needs and
                                                                         provide products and services to meet
         Objective C: Follow-up and evaluate                             them.                                                          Objective C: Assess, recognize, and reward,
         results of OIG products and services to                                                                                        when possible, performance that contributes to
         assess their effectiveness in promoting                         Strategy:                                                      achieving the OIG mission.
         positive change.                                                - establish new customer feed back mechanisms;
                                                                         - consider and evaluate customers feedback when                Strategy:
                                                                         planning and developing products and services;
         Strategy:                                                       - respond to Congressional inquires and request for
                                                                                                                                        - develop and articulate expectations for each employee's
         - Identify, as appropriate, lessons learned to improve                                                                         performance, including contributions in meeting the mission &
                                                                         briefing and testimony;
         timeliness and quality; and,                                                                                                   goals of the OIG; and,
                                                                         - promote open exchange of ideas and information
         - conduct follow-up reviews to determine if intended                                                                           - ensure that rewards, when possible, are given in recognition of
                                                                         through outreach and through use of e-mail; and,
         results have been achieved.                                                                                                    exceptional employee performance.
                                                                         - receive, evaluate, and respond, as appropriate, to
                                                                         information received through the OIG hotline and other
                                                                         sources.


         Objective D: Satisfy customers,
         consistent with the independent nature                          Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
         of the OIG.                                                     and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                         procedures.                                                    effective communication.
         Strategy:
         - establish professional communication and                      Strategy:                                                      Strategy:
         interaction with customers to promote the open                  - ensure that IG follow-up procedures are followed and
                                                                                                                                        - ensure that communication between employees is open;
         exchange of ideas;                                              that management is aware of their role in the process;
                                                                                                                                        - provide employees with the tools and incentives they need to
         - incorporate customer feedback, as appropriate; and,           - establish common OIG standards for terminology, date
                                                                                                                                        adequately perform their duties.
         - be open to customer-generated solutions and                   maintenance and communications.
         options.

                                                                         Objective E: Establish a positive and
                                                                         productive working environment.

                                                                         Strategy:
                                                                         - reengineer or streamline OIG procedures to achieve the
                                                                         most effective use of resources; and,
                                                                         - ensure that necessary technologies, evolving and
                                                                         otherwise, are made available to staff as needed.



         Performance Measures: Determine the
         timeliness and quality of products and                          Performance Measures: An annual audit                          Performance Measures: All employees meet
         services; their effectiveness in                                plan is issued; strategic plan is periodically                 the training requirements; all employees have
         promoting positive change; and, reach                           reviewed; and, necessary technology is                         performance standards; and all employees
         agreement with management on at least                           provided to staff to enable them to most                       meet the basic requirements for the position in
         90% of recommendations within six                               efficiently perform their duties.                              which they were hired to perform.
         months of the report issue date.


                    __________________________________________________________________________________
                    Semiannual Report to Congress                                                  Page 26                                      April 1, 2008 – September 30, 2008
                                                                                                                                                                                                            21
                                          CONTACTING THE
                              OFFICE OF INSPECTOR GENERAL


The success of the OIG mission to prevent fraud, waste, and abuse depends on the cooperation of FEC em-
ployees (and the public). There are several ways to report questionable activity.




                       Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or anony-
                       mous message can be left 24 hours a day/7 days a week.



                       Write or visit us - we are located at: Federal Election Commission

                       Office of Inspector General
                       999 E Street, N.W., Suite 940
                       Washington, D.C. 20463
                       Mail is opened by OIG staff members only.




                       You can also fax us at 202-501-8134 or contact us by e-mail at: oig@fec.gov.




                       Website address: http://www.fec.gov/fecig/fecig.shtml




Individuals may be subject to disciplinary or criminal action for knowingly making a false complaint or providing
false information.
